0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief for Amicus Curiae Aimed Alliance in
Support of the Petitioners in 20-1119, Amarin Pharma,
Inc. and Amarin Pharmaceuticals Ireland Limited v.
Hikma Pharmaceuticals USA Inc., Hikma
Pharmaceuticals International Limited, Dr. Reddy's
Laboratories. Inc. and Dr. Reddy's Laboratories, was
sent via Next Day Service to the U.S. Supreme Court,
and via Next Day Service to the following parties listed
below, this 4th day of March, 2021:
Seth P. Waxman
Counsel of Record
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
202-663-6800
Seth.Waxman@wilmerhale.com

Counsel for Petitioners Amarin Pharma, Inc., et al.
Charles Bennett Klein
Counsel of Record
Winston & Strawn LLP
1700 K Street NW
Washington, DC 20006
202-282-5977
cklein@winston.com

Counsel for Respondents Hikma Pharmaceuticals USA
Inc., Hikma Pharmaceuticals International Limited

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
· www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Constance S. Huttner
Counsel of Record
WINDELS MARX
One Giralda Farms
Madison, NJ 07940
973.966.3206
chuttner@windelsmarx.com
Counsel for Respondents Dr. Reddy's Laboratories, Inc.
and Dr. Reddy's Laboratories, Ltd.
ASHLEY C. PARRISH
Counsel of Record
JESSE D.H. SNYDER
KING & SPALDING LLP
1700 Pennsylvania Avenue NW
Washington, DC 20006
(202) 737-0500
aparrish@kslaw.com
Counsel for Amicus Curiae Aimed Alliance
Robert P. Greenspoon
Counsel of Record
Flachsbart & Greenspoon, LLC
333 N. Michigan Ave
Suite 2700
Chicago, IL 60601
312-551-9500
rpg@fg-law.com
Counsel for Amicus US Inventor Inc.

Zachary D. Tripp
Counsel of Record
Weil, Gotshal & Manges LLP
2001 M Street NW
Washington, DC 20036
202-682-7220
zack.tripp@weil.com

Counsel for Amicus LiquidPower Specialty Products
Inc.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 4, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

JYL~u?t Lf-,
~~

Notary P~blic

/j .

dO d-(

t<i~
CJ

'

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Exp·res
f c!:lnl~ry 14, ?023

